APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Court of Criminal Appeals of Texas
Refused Appellant’s Petition for Discretionary
Review (October 21, 2020) .................................... 1a
Dissenting Opinion filed by Justice Walker in
Court of Criminal Appeals of Texas
(October 21, 2020) ................................................. 3a
Judgment of the State of Texas, Fourteenth
Court of Appeals (February 27, 2020)............... 16a
Opinion of the State of Texas, Fourteenth
Court of Appeals (February 27, 2020)............... 18a
Order on Defendants Motion to Suppress Cellular
Search (May 30, 2018)......................................... 29a
Bench Ruling in Suppression Hearing
(October 8, 2018).................................................. 30a
Judgment of Conviction by Jury
(August 2, 2018)................................................... 36a
REHEARING ORDER
Order of the Court of Criminal Appeals of Texas
Denying Appellant’s Motion for Rehearing
(November 25, 2020) ........................................... 41a

APPENDIX TABLE OF CONTENTS (Cont.)
OTHER DOCUMENTS
Cell Phone Search Warrant
(April 9, 2018) ...................................................... 43a
Affidavit of Joe Freeman .................................... 46a
Return and Inventory ......................................... 52a

App.1a

ORDER OF THE COURT OF CRIMINAL APPEALS
OF TEXAS REFUSED APPELLANT’S PETITION
FOR DISCRETIONARY REVIEW
(OCTOBER 21, 2020)
COURT OF CRIMINAL APPEALS OF TEXAS
________________________
JERRY WILTZ
v.
THE STATE OF TEXAS
________________________
Tr. Ct. No. 1514086
COA No. 14-18-00718-CR
PD-0252-20
On this day, the Appellant’s petition for discretionary review has been refused.
JUDGE RICHARDSON AND JUDGE NEWELL
WOULD GRANT
/s/ Deana Williamson
Clerk
Alexander Houthuijzen
Attorney-at-Law, PLLC
917 Franklin St Ste 230
Houston, TX 77002-1741
*Delivered via e-mail*

App.2a
14th Court of Appeals Clerk
Christopher A. Prine
301 Fannin, Suite 245
Houston, TX 77002-7006
*Delivered via e-mail*
State Prosecuting Attorney
Stacey Soule
P.O. Box 13046
Austin, TX 78711
*Delivered via e-mail*
District Attorney Harris County
Appellate Section
1201 Franklin St. Ste. 600
Houston, TX 77002-1901
*Delivered via e-mail*

App.3a

DISSENTING OPINION
FILED BY JUSTICE WALKER IN
COURT OF CRIMINAL APPEALS OF TEXAS
(OCTOBER 21, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
________________________
JERRY WILTZ,

Appellant,
v.
THE STATE OF TEXAS,

Appellee.
________________________
Nos. PD-0252-20 & PD-0253-20
On Appellant’s Petition for Discretionary Review
from the Fourteenth Court of Appeals Harris County
WALKER, J., filed a dissenting opinion.
Dissenting Opinion
In his petition for discretionary review, Appellant
argues that the court of appeals erred in holding that
he abandoned his cell phone by fleeing the scene of a
traffic stop and thus lacked standing to challenge the
warrantless search of his cell phone and its contents.
This Court has yet to determine the parameters in
which a person’s actions constitute intentional abandon-

App.4a
ment of his cell phone for purposes of the Fourth
Amendment. Given the importance of this rapidly
evolving issue to Fourth Amendment jurisprudence, I
believe this Court should grant review to decide
whether the evidence in this case establishes that
Appellant intentionally abandoned his cell phone and
the contents within it. In the absence of full review, I
cannot agree with the court of appeals that Appellant evinced an intent to abandon his cell phone and
its contents merely by fleeing the scene. Therefore, I
respectfully dissent from the Court’s denial of Appellant’s petition for discretionary review.
I.

Background

While on beat patrol at about 4 a.m. June 15, 2016,
Harris County Sheriff’s Deputy Jose Castellanos
initiated a traffic stop of a Chevy Tahoe for failure to
stop at a designated point. Appellant, the driver,
pulled into a public parking lot and stopped without
parking in a parking space. Castellanos approached
the vehicle and detected the smell of marijuana, at
which point he asked Appellant to exit the vehicle so
he could handcuff and detain him. Castellanos then
attempted to detain the passenger in Appellant’s
vehicle but was instead led on a foot chase when the
passenger fled. As Castellanos took off after the
passenger, Appellant—hands cuffed—ran from the
parking lot.
After a short pursuit, Castellanos apprehended
the passenger, who had a gun. Castellanos returned
to the vehicle to discover Appellant was gone. After
putting the passenger in his patrol car, Castellanos
began to inventory Appellant’s vehicle.

App.5a
Castellanos recovered a gun, marijuana, and a
cell phone located next to the driver’s seat. Castellanos
also recovered drug paraphernalia and sex toys, all
of which were new and in the original packaging.
Castellanos proceeded to look through the contents of
the cell phone. As he did so, Castellanos opened text
messages, emails, and the settings application. Searching the phone, Castellanos found Appellant’s name
along with the address of a sex shop that had recently
been robbed. Castellanos entered Appellant’s name
into a reporting system, which led him to positively
identify Appellant.
Ultimately, police determined the unused, packaged items in Appellant’s vehicle were stolen from
one of two sex shops where employees had been
robbed at gunpoint. Appellant—a former employee of
the adult store chain—was indicted for aggravated
robbery of two retail stores.
Appellant filed a pre-trial motion to suppress all
evidence from the cell phone. The trial court agreed
that the warrantless search of the cell phone could
not be justified as a search incident to arrest or an
inventory search. However, the trial court determined
that Appellant had abandoned his cell phone and
thus lacked standing to challenge the search. As trial
neared, Appellant asked the trial court to reconsider
its suppression ruling and argued that the abandonment doctrine did not apply because Appellant did not
intentionally abandon his cell phone.1 Following a
1 At the time Appellant filed his motion to suppress in November 2017, the State had not yet obtained a search warrant for
the cell phone. In April 2018, about a month before the motion
to suppress hearing, the State obtained a search warrant to
forensically examine the cell phone. Subsequently, in July 2018,

App.6a
hearing on Appellant’s motion to reconsider, the trial
court once again ruled that the abandonment doctrine
applied to the warrantless search of the cell phone
and denied his motion. A jury found Appellant guilty
of aggravated robbery of both of the sex shops, and a
judge sentenced him to ten years on each count to be
served concurrently.
On appeal, Appellant challenged the trial court’s
denial of his motion to suppress. In addition to
arguing that he did not intentionally abandon his cell
phone, Appellant contended that the abandonment
doctrine could not apply as an exception to a warrantless search of a cell phone based on the United States
Supreme Court decision in Riley v. California, 573
U.S. 373 (2014). The court of appeals rejected Appellant’s arguments, determined that the abandonment
doctrine did apply to the cell phone, and affirmed
Appellant’s convictions. Wiltz v. State , 595 S.W.3d
930, 936 (Tex. App.—Houston [14th Dist.] 2020).
II. Abandonment Doctrine
A person has no reasonable expectation of privacy
in property he abandons. Matthews v. State, 431
S.W.3d 596, 608 (Tex. Crim. App. 2014). Once a defendant voluntarily and intentionally abandons property,
he no longer has standing to challenge the reasonableness of the search of the abandoned property. Id.
at 608-09. Rather than being determined in the strict
property-right sense, the issue centers on whether
the person relinquished his or her interest in the
property so that he or she could no longer retain a
reasonable expectation of privacy with regard to the
Appellant filed a motion to reconsider the motion to suppress.

App.7a
property at the time of the search. State v. Martinez,
570 S.W.3d 278, 286 (Tex. Crim. App. 2019) (citing
McDuff v. State, 939 S.W.2d 607, 616 (Tex. Crim. App.
1997)).
Abandonment is primarily a question of intent
to be inferred from words spoken, acts done, and other
objective facts and relevant circumstances. Id. “[A]bandonment consists of two components: 1) a defendant
must intend to abandon property, and 2) a defendant
must freely decide to abandon the property.”2 Comer
v. State, 754 S.W.2d 656, 659 (Tex. Crim. App. 1986)
(op. on reh’g). The abandonment “test does not begin
with a presumption of abandonment which must be
rebutted by proof of an intent not to abandon.”
Martinez, 570 S.W.3d at 286. Instead, affirmative
proof of abandonment is required. Id.
III. The Evidence Fails to Show That Appellant
Intentionally Abandoned His Cell Phone.
While this Court has recognized that the
abandonment doctrine may apply as an exception to
the warrantless search of a cell phone, State v. Granville, 423 S.W.3d 399, 409 (Tex. Crim. App. 2014), we
have not specified the parameters in which a person’s
actions equate to intentional abandonment of a cell
phone for purposes of the Fourth Amendment.
In concluding that Appellant intentionally abandoned his vehicle and cell phone, the court of appeals
noted that “[t]he video shows appellant fleeing from
2 A person does not voluntarily abandon his cell phone if his
relinquishment is the result of police misconduct. Comer, 754
S.W.2d at 658-59. Because there is no evidence of police misconduct
in this case, the abandonment inquiry is one of intent.

App.8a
the vehicle on foot after having been handcuffed,
passing by the wide-open door, leaving behind his
vehicle and everything in it, including the cell phone.”
Wiltz, 595 S.W.3d at 935. While I agree that Appellant
abandoned his vehicle when he fled,3 the same evidence, without more, does not demonstrate that
Appellant intended to abandon his cell phone and the
information within it.
It is apparent that when Appellant fled, he knew
his vehicle would be left behind and chose to run
anyway. Appellant did not return to his vehicle. By
intentionally leaving his unparked vehicle in a public
parking lot, Appellant abandoned the vehicle “in such
a way ‘that he could no longer retain a reasonable
expectation of privacy with regard to it at the time of
the search.’” Matthews, 431 S.W.3d at 609 (quoting
McDuff, 939 S.W.2d at 616). If the question was
whether Appellant had standing to challenge the
search of his vehicle, I would hold that he did not.
But what is not apparent from the record is
whether Appellant knew the cell phone was in his
vehicle when he ran or whether he made a conscious
decision to leave it behind. Based on the facts before
us, it would be speculative to conclude that Appellant
knew his phone was in his vehicle and intentionally
left it behind when he fled just as it would be speculative to conclude that he believed it was in his
pocket when he ran. The record also is silent as to
whether Appellant was in possession or control of his
cell phone at the time of the stop. As the Appellant
3 See Matthews, 431 S.W.3d at 610 (concluding that the defendant
intentionally abandoned a borrowed vehicle when he fled from
the police).

App.9a
suggested to the trial court, it is possible that the
passenger was using the phone and had control over
it when the traffic stop occurred. Again, reaching
that conclusion would be speculative just as concluding
that Appellant was in control of his phone at the
time of the stop would be speculative. There is no evidence that would lead to an inference that Appellant
intentionally abandoned the phone.
Both the trial court and the court of appeals
found Edwards v. State, 497 S.W.3d 147 (Tex. App.—
Houston [1st Dist.] 2016, pet. ref’d) instructive on the
issue of whether Appellant abandoned his cell phone
for purposes of the Fourth Amendment. Although the
court of appeals in Edwards did hold that the defendant
in that case abandoned his cell phone, the case is
distinguishable in several respects.
In Edwards, the defendant left his phone out in
the open on top of a stolen vehicle he and his codefendants used as transportation to a game room
where they attempted an armed robbery. Id. at 154.
Based on the facts available, it appears that Edwards
left his cell phone on top of the stolen vehicle before
he approached the game room and got into a
confrontation with the security guard, which led to a
shootout between the defendants and the security
guard. Id. at 151–54. Eventually, Edwards took off
running without going back for his cell phone. Id. at
152.
There was an abundance of evidence that Edwards
intentionally abandoned his cell phone when he left
it on top of the stolen vehicle out in the open before
he attempted an armed robbery and fled from the
scene without going back for his cell phone. Based on
these facts, it is clear that Edwards relinquished any

App.10a
reasonable expectation of privacy with regard to his
cell phone.
The facts of Appellant’s case differ substantially.
The one similarity is that both Edwards and Appellant
fled from the scene. But while in Edwards there is
affirmative evidence4 to infer that he knew he would
be leaving his cell phone behind when he fled, the
same cannot be said in Appellant’s case.
In Edwards, the appellant placed his cell phone
on top of a stolen car and then walked away to commit a crime. Edwards’s act of getting out of a stolen
vehicle and proceeding to the game room lobby
without his cell phone provided some affirmative evidence that Edwards intended to leave his cell phone
behind. In Appellant’s case, there is no evidence that
Appellant had the intent to leave the cell phone behind.
There is no evidence to even infer that Appellant
thought about whether he had the time or ability to
retrieve the phone while having his hands cuffed
behind his back. Immediately after Castellanos took
off after Appellant’s passenger, Appellant—who was
handcuffed and could not have accessed his cell phone
even if he knew it was there—ran. Not only is there
no affirmative evidence that Appellant formed the
intent to abandon his cell phone, the record facts
would lead to a logical conclusion that it was extremely
unlikely that he did so.
Further, in Edwards police found a handprint
located on the vehicle near the cell phone that matched
Edwards’s handprint. Edwards, 497 S.W.3d at 158,
4 See Martinez, 570 S.W.3d at 286 (explaining that “the test for
abandonment in the Fourth Amendment context requires affirmative proof of abandonment”).

App.11a
n. 14. Unlike in Appellant’s case, this provided some
evidence to infer that Edwards placed his phone on
top of the car and therefore knew he was leaving his
cell phone behind. The fact that Edwards left his cell
phone out in the open and on top of a vehicle that did
not belong to him or his co-defendants can also lead
to an inference that Edwards intended to abandon
the cell phone at the time he placed it on top of the
car. See Martinez, 570 S.W.3d at 287 (explaining
that “[n]ot only will privacy expectations vary with
the type of property involved . . . but they will vary
with the location of the property”) (quoting United
States v. Oswald, 783 F.2d 663, 666–67 (6th Cir. 1986)).
Conversely, in Appellant’s case, the cell phone was
recovered from the inside of Appellant’s vehicle. For
purposes of privacy expectations, a person leaving
his cell phone inside of his own vehicle is much
different than a person leaving his cell phone out in
the open and on top of a stolen vehicle to go commit a
robbery. Unlike the present case, consideration of
where Edwards left his cell phone is additional affirmative evidence of his intent to abandon his cell phone.
Absent a showing of any affirmative evidence of
Appellant’s intent to abandon his cell phone, I cannot
agree that Appellant did not have any reasonable
expectation of privacy regarding his cell phone and
would hold that he did have standing to challenge
the warrantless search of his cell phone.
IV. The Evidence Fails to Show that Appellant
Intentionally Abandoned the Contents of His Cell
Phone.
Even if evidence existed that could lead to an
inference that Appellant had intentionally abandoned

App.12a
his cell phone by fleeing, there is no evidence that he
intentionally abandoned the information contained
in his cell phone. There is a distinction between the
privacy interests of a cell phone as a physical object
and the digital contents stored on a cell phone. This
Court recognized as much in Granville when we concluded police were permitted to inspect the physical
aspects of appellant’s cell phone in police custody but
were required to obtain a warrant to search the
contents of the phone. Granville, 423 S.W.3d at 416;
Id. at 426 (Keller, P.J., concurring).
In Granville, the defendant challenged the search
of his cell phone seized while being booked in jail.
Shortly after Granville, a high school student, was
booked, a school resource officer was told that Granville
had taken an inappropriate picture of another student
in the boys’ bathroom. The officer went to the jail,
retrieved Granville’s cell phone from the property
room, and looked through it until he found the photograph. Id. at 402. In rejecting the State’s argument
that Granville did not have a reasonable expectation
of privacy in any property in the custody of jail
officials, this Court distinguished the expectation of
privacy in physical objects such as clothing from the
expectation of privacy in cell phones:
[C]lothing does not contain private banking
or medical information and records; it does
not contain highly personal emails, texts,
photographs, videos, or access to a wide
variety of other data about the individual
citizen, his friends and family. Searching a
person’s cell phone is like searching his home
desk, computer, bank vault, and medicine
cabinet all at once.

App.13a

Id. at 415. See also Riley, 573 U.S. at 396 (“Indeed, a
cell phone search would typically expose to the government far more than the most exhaustive search of
a house[.]”).
In Riley, the Supreme Court held a warrant was
required to search a cell phone seized incident to an
arrest given the “quantitative and qualitative” differences between a cell phone and other objects. Id. at
393, 403. In so holding, the Court rejected the Government’s argument that information stored by cell
phones is “materially indistinguishable” from searches
of other physical items that police are authorized to
search incident to an arrest such as wallets, purses,
and other containers. Id. at 393. In the Court’s view,
the Government’s argument was “like saying a ride
on horseback is materially indistinguishable from a
flight to the moon.” Id.
Nor was the Supreme Court persuaded by the
Government’s proposed rule that police be permitted
to conduct a limited search of a cell phone seized
incident to an arrest “where an officer reasonably
believes that information relevant to the crime, the
arrestee’s identity, or officer safety will be discovered.”
Id. at 399. The Supreme Court declined to hold as much
based on the plethora of information that would be
swept up by such a rule and the inability for police to
“discern in advance what information would be found
where.” Id.
The Court also was unpersuaded by the Government’s suggestion that a search of a cell phone call
log always be authorized. Id. at 400. In refusing to
adopt such a rule, the Supreme Court explained that
“call logs typically contain more than just phone
numbers; they include any identifying information

App.14a
that an individual might add, such as the label ‘my
house’ in [this] case.” Id.
Although Riley involved the search incident to
arrest doctrine rather than the abandonment doctrine,
the same privacy interests and governmental intrusion
concerns expressed by the Supreme Court apply to the
contents of the cell phone in this case. While Castellanos may not have done an extensive search of
Appellant’s cell phone, the Riley Court made clear that
any warrantless search of a defendant’s cell phone,
however minimal, is unreasonable absent express
exigent circumstances such as a concern for the
safety of officers or others. Id. at 388, 399-400.
Given the heightened privacy interests associated
with the information within a cell phone as distinct
from the privacy interests associated with a cell phone
as a physical object and the lack of any evidence that
Appellant intentionally abandoned the contents of
his cell phone, I would hold that Appellant maintained
a reasonable expectation of privacy in the contents of
the cell phone and thus had standing to challenge
Castellanos’s warrantless search of the cell phone.
V.

Conclusion

Application of Fourth Amendment principles to
cell phones is an evolving area of constitutional law
that warrants further development. Both this Court
and the Supreme Court have recognized a person’s
distinct privacy interests in his cell phone. Granting
review in this case would give the Court an opportunity
to address the abandonment doctrine’s application to
cell phones and the vast amount of information
stored on them. Without review, I cannot conclude
that the evidence in this case establishes that Appellant

App.15a
abandoned either his cell phone or the contents within
it, thereby losing any reasonable expectation of privacy
regarding his cell phone and its contents. Therefore,
I respectfully dissent from the Court’s refusal to
grant review.
FILED: October 21, 2020
PUBLISH

App.16a

JUDGMENT OF THE STATE OF TEXAS,
FOURTEENTH COURT OF APPEALS
(FEBRUARY 27, 2020)
THE STATE OF TEXAS
THE FOURTEENTH COURT OF APPEALS
________________________
JERRY WILTZ,

Appellant,
v.
THE STATE OF TEXAS,

Appellee.
________________________
No. 14-18-00718-CR
No. 14-18-00719-CR
Cause No. 14-18-00718-CR was heard on the
appellate record. Having considered the record, this
Court holds that there was no error in the judgment.
The Court orders the judgment AFFIRMED. We further
order this decision certified below for observance.
Cause No. 14-18-00719-CR was heard on the
appellate record. Having considered the record, this
Court holds that there was no error in the judgment.
The Court orders the judgment AFFIRMED. We further order this decision certified below for observance.

App.17a
Judgment Rendered February 27, 2020.
Panel Consists of Justices Chief Justice Frost and
Justices Wise and Hassan.
Opinion delivered by Chief Justice Frost.

App.18a

OPINION OF THE STATE OF TEXAS,
FOURTEENTH COURT OF APPEALS
(FEBRUARY 27, 2020)
THE STATE OF TEXAS
THE FOURTEENTH COURT OF APPEALS
________________________
JERRY WILTZ,

Appellant,
v.
THE STATE OF TEXAS,

Appellee.
________________________
No. 14-18-00718-CR
No. 14-18-00719-CR
On Appeal from the 230th District Court
Harris County, Texas Trial Court Cause
Nos. 1514086 & 1570825
Before: Kem THOMPSON FROST, Chief Justice.
Appellant Jerry Wiltz appeals his convictions for
the aggravated robbery of two retail stores. He seeks
appellate relief based on a single complaint: the trial
court erred in denying his motion to suppress data
found on his cell phone. Because appellant abandoned
the cell phone in his open car when he fled from the

App.19a
police, we conclude he lacked standing to challenge
the constitutionality of the cell-phone search. We
affirm.
I.

Procedural and Factual Background

On June 13, 2016, two armed, masked men
entered a Zone D’Erotica store, held its clerk at gun
point, and stole money and other things from the
store. Later that night, the same thing happened at
another Houston-area Zone D’Erotica store. Two nights
later, Harris County Sherriffs Office Jose Castellanos
stopped appellant’s vehicle around 4:00 am for a
traffic violation. Officer Castellanos testified that
when he walked up to the door of the vehicle, he
smelled marijuana. Appellant was in the driver’s
seat and Peter Vanderveen was sitting next to him.
Castellanos asked appellant to get out of the car and
he did so. Castellanos then handcuffed appellant.
During this time, Vanderveen casually stepped out of
the passenger side of the vehicle, paused for a moment,
and then took off running. Officer Castellanos ultimately caught Venderveen, but during their foot race,
appellant fled. Appellant did not return to the scene.
After securing Venderveen in the patrol car,
Officer Castlellanos began to inventory the contents
of the vehicle. Castellanos found, among other items,
a gun, two bags of marijuana, still-packaged drug
paraphernalia, and sex toys. He also found a cell
phone by the driver’s seat. At the suppression hearing,
Officer Castellanos testified that he looked through the
phone to identify its owner. In viewing text messages
he found an address and appellant’s name “on the
owner detail portion of the message.”

App.20a
Appellant was charged by two indictments with
the aggravated robbery of each of the stores. Appellant
filed a pre-trial motion to suppress, asking the trial
court to exclude all evidence seized from appellant’s
cell phone on the grounds that the police officer
obtained the cell phone through an unreasonable,
warrantless search to which no exceptions to the
warrant-requirement applied.
The State argued that appellant had abandoned
the cell phone when he left the property in the vehicle
and fled the scene. The suppression hearing took
place over several days. At the conclusion of the
hearing, the trial court agreed with appellant that
many of the warrantless-search exceptions did not
apply to the facts as presented, but the trial court
denied appellant’s motion to suppress on the ground
that appellant had abandoned the cell phone.
At trial, the State presented Todd Messina, who
had been a manager at the Willow Chase Zone
D’Erotica in 2016. Messina testified that he had hired
appellant to work at the Willow Chase store and that
appellant had worked there for a while before being
fired. Messina testified that after another employee
was promoted, appellant threatened Messina. Messina
identified appellant as one of the men appearing on
the surveillance videos taken of the robbery at the
Willow Chase store. The State also offered the following
evidence from the cell phone Officer Castellanos
discovered:
•

Photographs of appellant, including one showing
him holding a firearm;

•

Text messages that characterized appellant as
a marijuana dealer; and

App.21a
•

Text messages suggesting that appellant committed the robberies as a sort of revenge
against Messina.

In closing argument, the State focused on the text
messages and dubbed them “the best evidence that
[appellant] committed the[] robberies[.]”
The jury returned a “guilty” verdict in both cases.
The trial court accepted the jury’s assessment of
punishment, and then sentenced appellant to ten years’
confinement for each aggravated-robbery conviction.
The trial court specified that the sentences were to
run concurrently.
II. Issues and Analysis
In his sole issue appellant asserts that the trial
court erred by denying his motion to suppress evidence
Officer Castellanos retrieved from appellant’s cell
phone on the grounds the officer conducted the search
without a warrant or under a valid exception and
because, contrary to the trial court’s finding, appellant did not abandon the cell phone. Under this issue,
appellant also challenges the legality of a warrant
subsequently issued to search the cell phone. Appellant argues he suffered harm by the admission of the
cell-phone evidence.
We review a trial court’s ruling on a motion to
suppress under a bifurcated standard. Ramirez-Tamayo
v. State, 537 S.W.3d 29, 35 (Tex. Crim. App. 2017).
As long as the record supports the trial court’s determination of historical facts, and mixed questions of
law and fact that rely on credibility, courts give almost
total deference to those decisions. State v. Kerwick,
393 S.W.3d 270, 273 (Tex. Crim. App. 2013). We review

App.22a
de novo the trial court’s application of the law to the
facts. Ramirez-Tamayo, 537 S.W.3d at 35. When, as
in this case, the trial court does not make formal
findings of fact, we will uphold the trial court’s ruling
on any theory of law applicable to the case and we
will presume the trial court made implicit findings in
support of its ruling if the record supports those findings. Cheek v. State, 543 S.W.3d 883, 888 (Tex.
App.—Houston [14th Dist.] 2018, no pet.).
“Under the Fourth Amendment, ‘[t]he right of the
people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and
seizures, shall not be violated[.]’” State v. Huse, 491
S.W.3d 833, 839 (Tex. Crim. App. 2016) (quoting U.S.
Const. amend. IV). What constitutes a “search” for
Fourth Amendment purposes—and therefore, what
may serve to confer Fourth Amendment “standing”—
may be predicated, as the Supreme Court of the United
States has emphasized, on either an intrusion-uponproperty theory of search or a reasonable-expectationof-privacy theory of search. See Florida v. Jardines,
569 U.S. 1, 11, 133 S. Ct. 1409, 1414, 185 L.Ed.2d 495
(2013); United States v. Jones, 565 U.S. 400, 406, 132
S. Ct. 945, 949–51, 181 L.Ed.2d 911 (2012); Williams
v. State, 502 S.W.3d 254, 258 (Tex. App.—Houston
[14th Dist.] 2016, pet. ref’d). Appellant asserts he had
a reasonable expectation of privacy in the contents of
his cell phone.
To assert a challenge to a search and seizure, a
defendant first must establish standing. See Kothe,
152 S.W.3d at 59; Villarreal v. State, 935 S.W.2d
134, 138 (Tex. Crim. App. 1996). So, as a threshold
issue, we consider appellant’s standing to challenge
the search and seizure. A person has standing to

App.23a
challenge the reasonableness of a search or seizure
under a reasonable-expectation-of-privacy theory if
(1) the person has a subjective expectation of privacy
in the place or object searched, and (2) society is
prepared to recognize that expectation as “reasonable”
or “legitimate.” State v. Granville, 423 S.W.3d 399,
405 (Tex. Crim. App. 2014); Williams, 502 S.W.3d at
258. A defendant normally has standing to challenge
the search of places and objects the person owns.
State v. Granville, 423 S.W.3d 399, 406 (Tex. Crim.
App. 2014). Courts have held that (1) one has a subjective expectation of privacy in the contents of one’s
cell phone, and (2) society recognizes this expectation
of privacy as reasonable and legitimate. Id. at 405–
06. Yet, one may lose a reasonable and legitimate
expectation of privacy in the contents of one’s cell phone
if one abandons the phone. Id. at 409; Edwards v.
State, 497 S.W.3d 147, 160 (Tex. App.—Houston [1st
Dist.] 2016, pet. ref’d).
Abandonment of property occurs when one intends
to abandon the property and that decision does not
flow from police misconduct. McDuff v. State, 939
S.W.2d 607, 616 (Tex. Crim. App. 1997); Edwards v.
State, 497 S.W.3d 147, 160 (Tex. App.—Houston [1st
Dist.] 2016, pet. ref’d). “When police take possession
of property abandoned independent of police misconduct[,] there is no seizure under the Fourth Amendment.” McDuff, 939 S.W.2d at 616. Abandonment is
primarily a question of intent that can be inferred
from the party’s words and actions and other circumstances surrounding the alleged abandonment. Id.;
Edwards, 497 S.W.3d at 160. We must determine
whether appellant voluntarily discarded, left behind,
or otherwise relinquished his interest in the cell phone

App.24a
so that he could no longer retain a reasonable
expectation of privacy with regard to it at the time of
the search. See McDuff, 939 S.W.2d at 616; Edwards,
497 S.W.3d at 160–61; see also Straight v. State , 515
S.W.3d 553, 567 n. 16 (Tex. App.—Houston [14th Dist.]
2017, pet. ref’d) (discussing the appropriate standard
in the context of an ineffective-assistance analysis).
Although the trial court did not make formal
findings, the trial judge noted that there appeared to
be no dispute as to the propriety of the traffic stop.
The dashcam video from Officer Castellanos’s patrol
car confirms this assessment, showing that appellant
stopped on (and blocked) the pedestrian crossing.
After Officer Castellanos activated his patrol car’s
lights, signaling appellant to stop, appellant pulled
into a parking lot and parked in the lot, but not in a
designated parking space. The trial court noted Officer
Castellanos’s testimony that he had smelled marijuana
in approaching appellant’s vehicle, prompting the
officer to ask appellant step out of the vehicle. The
officer then handcuffed appellant. Appellant does not
argue, nor does the record contain evidence, that
Officer Castellanos’s conduct in handcuffing appellant
at that time amounted to police misconduct. Appellant
does not point to any other potential law-enforcement
misconduct that might have led to his alleged
abandonment of the car and cell phone.
We now consider whether appellant intended to
abandon the cell phone. The record contains no evidence that the cell phone was password-protected or
that appellant otherwise had attempted to limit
another person’s ability to access the phone and search
through it to ascertain ownership. See Lown v. State ,
172 S.W.3d 753, 761 (Tex. App.—Houston [14th Dist.]

App.25a
2005, pet. ref’d) (concluding that appellant failed to
show that his expectation of privacy was objectively
reasonable because, among other reasons, “there is
no evidence demonstrating that appellant took any
precautions (such as encryption) to protect his privacy
in the information contained on the computer system”).
The facts do not present a scenario in which the cellphone owner lost his phone and failed to keep it
secured. See id. Flight does not particularly relate to
the “reasonableness” of the expectation of privacy;
instead, it signals the abandonment of that expectation
of privacy. Matthews v. State, 431 S.W.3d 596, 610
(Tex. Crim. App. 2014). Here, the evidence supports
a finding that appellant intentionally left the cell
phone behind; no evidence suggests that he intended
to keep it. See id. When Vanderveen exited the car
and took off running, he left the vehicle door open.
The video shows appellant fleeing from the vehicle
on foot after having been handcuffed, passing by the
wide-open door, leaving behind his vehicle and
everything in it, including the cell phone.
Like the trial court, we find this scenario analogous
to the facts in Edwards v. State, 497 S.W.3d 147 (Tex.
App.—Houston [1st Dist.] 2016, pet. ref’d), a case in
which the First Court of Appeals found abandonment
of a cell phone recovered from the top of the defendants’ vehicle when officers arrived at the scene. Id. at
160. In Edwards, the defendants “took off running”
when they “felt that the police were close by,” whereas
in this case appellant took off running after having
been placed in handcuffs. Appellant contends that
the handcuffs removed his ability to intentionally
abandon the cell phone in the vehicle at the time he
fled. Appellant argues that with the restraint of his

App.26a
hands, his ability to formulate an intent also became
restrained.
No one compelled appellant to abandon property
or any privacy right associated in that property.
While the circumstances may have been part of
appellant’s calculus in making the decision, the decision
was his. As appellant stood handcuffed, before he fled,
he retained the privacy protections to his cell phone
the law affords. But appellant opted to flee the scene
and leave his cell phone behind. In making that decision to abandon the cell phone, appellant intentionally gave up any privacy rights to information on the
cell phone. See Edwards, 497 S.W.3d at 161.
In 2014, the Court of Criminal Appeals noted that
“when a person abandons their phone” that person
may lose their reasonable and legitimate expectation
of privacy in that property. Granville, 423 S.W.3d at
409. But appellant relies on the Supreme Court of
the United States’ opinion in Riley v. California, issued
shortly thereafter. In Riley, the Supreme Court did
not address the abandonment doctrine or any standing issue and explicitly left the door open for other
case-specific exceptions. 573 U.S. 373, 401–02, 134 S.
Ct. 2473, 2494, 189 L. Ed. 2d 430 (2014) (finding that
search-incident-to-arrest exception to the warrant
requirement did not apply to the cell phone, but noting
the continuing applicability of other case-specific
exceptions); see also Carpenter v. United States , 138
S. Ct. 2206, 2222, 201 L. Ed. 2d 507 (2018) (recognizing
“case-specific exceptions may support a warrantless
search of an individual’s cell-site records under certain
circumstances”). Appellant asserts that after Riley the
abandonment doctrine does not apply to cell phones,
and appellant cites a Florida state court decision

App.27a
involving a password-protected cell phone. See State v.
K.C., 207 So.3d 951, 958 (Fla. Ct. App. 2016) (concluding that under Riley the abandonment exception
does not apply to cell phones whose contents are protected by a password). As noted, no evidence shows that
appellant’s cell phone was protected by a password.
Like the First Court of Appeals, and a majority of
other courts that have considered the abandonment
doctrine as applied to cell phones post-Riley, we
conclude that the abandonment doctrine applies to
cell phones and implicates the defendant’s standing
to challenge the reasonableness of the search of the
phone’s contents. See United States v. Crumble, 878
F.3d 656, 660 (8th Cir. 2018); United States v.
Quashie, 162 F.Supp.3d 135, 141-42 (E.D.N.Y. 2016)
(finding Riley does not eliminate abandonment exception for cell phones); Kelso v. State, 562 S.W.3d 120,
135 (Tex. App.—Texarkana 2018, pet. ref’d); Edwards,
497 S.W.3d at 160; Lopez v. State , 512 S.W.3d 416
(Tex. App.—Corpus Christi 2016, no pet.) (holding
that appellant abandoned phone and had no standing to object to evidence retrieved from it when he
left the device at his workplace and never requested
that it be returned to him).
Appellant has not shown that he had a reasonable
expectation of privacy in the cell phone that he
abandoned inside the vehicle. Appellant therefore
lacks standing to complain of the reasonableness of
the search of the contents of the cell phone. See
Swearingen v. State , 101 S.W.3d 89, 101 (Tex. Crim.
App. 2003); Edwards, 497 S.W.3d at 160. We overrule
appellant’s sole issue challenging the denial of his
motion to suppress.

App.28a
III. Conclusion
Because the record shows that appellant abandoned his cell phone, we conclude the trial court did
not err in impliedly finding that appellant lacked
standing to challenge the search of the cell phone.
We affirm the trial court’s judgment.
/s/ Kem Thompson Frost
Chief Justice
Panel consists of Chief Justice Frost and Justices
Wise and Hassan.
Publish—Tex. R. App. P. 47.2(b).

App.29a
ORDER ON DEFENDANTS MOTION TO
SUPPRESS CELLULAR SEARCH
(MAY 30, 2018)
IN THE DISTRICT COURT HARRIS COUNTY,
TEXAS 230TH JUDICIAL DISTRICT
________________________
STATE OF TEXAS
v.
JERRY WILTZ
________________________
Cause No. 1514086
Before: Brad HART, Judge Presiding.
Upon due consideration, Defendant’s Motion to
Suppress Cellular Search is DENIED.
AND IT IS SO ORDERED ON THIS THE ___
DAY OF __________, 2017.
/s/ Brad Hart
Judge Presiding
Signed May 30, 2018

App.30a
BENCH RULING IN SUPPRESSION HEARING
(OCTOBER 8, 2018)
IN THE DISTRICT COURT HARRIS COUNTY,
TEXAS 230TH JUDICIAL DISTRICT
________________________
THE STATE OF TEXAS
v.
JERRY WILTZ
________________________
Trial Court Cause No. 1514086 & 1570825
Court of Appeals Nos. 14-18-00718-CR &
14-18-00719-CR
Volume 7 of 15 Volumes
Before: Hon. Brad HART, Judge Presiding.

[October 8, 2018, Transcript p.3]
THE COURT: What do you want to do first? MR.
HOUTHUIJZEN: We would like to address the
motion to suppress first, Judge.
THE COURT: All right. Then I will address that one
first.
MR. HOUTHUIJZEN: Find out what your ruling is.
But before you do so, I would like to bring to the
Court’s attention that last week I received an email from the State. In that e-mail—it was at
5:20 p.m. last week, May 23rd, same day we had
the motion to suppress hearing. I got an e-mail
from the State with a search warrant that had

App.31a
been executed April 8th or 9th of this same year,
of 2018, for the cell phone that was in question
during that motion to suppress hearing.
And I just would like to bring that to the Court’s
attention, that the State has filed a search
warrant now that we have addressed the illegality
of the original search. That search warrant, if
the Court would like to see it—we will be filing
another motion to suppress that search warrant.
And the search warrant’s probable cause is the
same issues that we went over in the original
motion to suppress concerning the illegality of
the search. So, for what it’s worth, we just
wanted to bring that to the Court’s attention.
THE COURT: Well, all of you people are the gift that
keeps on giving, aren’t you? Well, no, we’re not
addressing that right now.
MR. HOUTHUIJZEN: I understand.
THE COURT: We’ll address this—
MR. HOUTHUIJZEN: I understand.
THE COURT:—right now.
All right. Regarding the motion to suppress
hearing that we had last week, first off, I will
make—as I think the evidence is clear—that the
defendant was stopped on a traffic stop for
failing to stop at a designated point. Which I
don’t believe that there was any controverted
evidence regarding that as the video seemed to
clearly establish that the vehicle was not stopped
at the designated point. That the defendant was
the driver of that vehicle. The defendant pulled
into a parking lot and ordered to stop. Did not

App.32a
pull into a parking space, but pulled into a
parking lot and stopped the vehicle.
The deputy testified that he approached the vehicle
and smelled an odor of marijuana. At which point
he detained the defendant, placing him in handcuffs. Officer—Deputy testified that the passenger
was moving around. I don’t recall if he said he
ordered the passenger out or if the passenger just
got out. I don’t recall, but I don’t think it makes
a difference.
In any event, the passenger got out of the vehicle
and took off running. The deputy gave chase.
Passenger door was left open. Deputy gave chase
of that person. At which point you can see on the
video clearly the defendant fleeing the scene too
while in handcuffs. I believe the testimony was
that the defendant was not caught there at the
scene, but the passenger was caught and brought
back to the scene.
Specifically regarding the cell phone-what the
officer testified to was that he was conducting an
inventory search of the vehicle. Located a gun,
various other items that he believed to be stolen.
Didn’t really say how or why he believed those
items to be stolen, but said that he had found
several items that he believed may have been
stolen. Additionally, found the cell phone in the
front of the vehicle.
The officer testified that since he thought—I
believe what he said was that since he thought
the items were stolen, he thought maybe the cell
phone was stolen also. So, he was looking to see
who the owner of the phone was.

App.33a
Couple of issues here as I see it. There was no
real testimony about this being a search incident
to arrest. I think if it were, then Riley would
certainly apply and that would have been an
illegal search.
Regarding the inventory of the vehicle, I don’t
believe searching a cell phone during an inventory
of the vehicle would have been appropriate either.
There was—I believe in the Riley case, maybe it
was another case, that talked about searching
a cell phone in order to help catch a fleeing
suspect, how that might be okay. But I don’t really
find that that’s—would have been necessary
here in this case because the officers could have
gotten a search warrant since the defendant was
not caught there at the scene. Gotten a search
warrant to search the cell phone to figure out
was it stolen, did it belong to the defendant, who
it belonged to, anything of that nature.
However, under Texas law, specifically Edwards
versus State, 497 Southwest 3rd, 147 as it relates
to abandoned property, this case that we face
ourselves with and Mr. Wiltz is not completely
similar, but similar enough that it appears that
the defendant relinquished any privacy interest
he had in that cell phone when he fled the scene
and left it there. There was no real testimony
about the cell phone being locked where he needed
a code to get into it. It does not appear to be that
way since the officer was able to look in it and
see who the phone belonged to.

App.34a
In any event, because of that case and the
testimony and evidence presented, the Court will
find that the defendant abandoned the cell phone.
Therefore, no longer had standing to contest the
search of the cell phone. So, your motion to
suppress on that will be denied. All right.
MR. ROGERS: Thank you, Judge.
MR. HOUTHUIJZEN: Thank you, Judge.
THE COURT: I don’t know—I don’t know anything
about the search warrant. I don’t know. So, I
don’t know.
MS. COOPER: And just you’re aware, the initial abandoned phone, they just looked in it to get some
information on who it belonged to. They didn’t
do a full download of it at that time. We did the
search warrant to do the full download later on.
So, that was the distinction of that.
THE COURT: Okay. Well, like I said, I haven’t seen
the search warrant. So, I don’t know what else,
if anything, can be complained about in there.
I’ve made my ruling.
If the probable cause at least partially for the
search warrant is based upon the evidence we
just heard on this motion to suppress, then I’m
assuming—even though I probably shouldn’t
because I don’t know what other information is
in there. But at least that portion of the probable
cause I will find or—information contained in
the affidavit, I would find probable cause for
that or find that there would be no standing for
that part of it. But I don’t know what else is in
there. I don’t know if there might be something

App.35a
else beyond that. But I would think that it would
be okay, but I’m not—especially with y’all, I’m
not assuming that. Okay.
(Proceedings adjourned).

App.36a
JUDGMENT OF CONVICTION BY JURY
(AUGUST 2, 2018)
IN THE 230TH DISTRICT COURT
HARRIS COUNTY, TEXAS
________________________
STATE OF TEXAS
v.
WILTZ, JERRY
________________________
Case No. 151408601010
State ID No.: TX50524692
Incident NO/TRN: 9171982787A00I
Judge Presiding:
Hon. Brad Hart
Date Judgment Entered:
08/02/2018
Attorney for State:
Jerell Rogers/Micala Clark
Attorney for Defendant:
Houthuijzen, Alexander
Offense for which Defendant Convicted:
Aggravated Robbery-Deadly Weapon
Charging Instrument:
Indictment
Statute for Offense:

App.37a
N/A
Date of Offense:
06/13/2016
Degree of Offense:
1st Degree Felony
Plea to Offense:
Not Guilty
Verdict of Jury:
Guilty
Findings on Deadly Weapon:
Yes, a Firearm
Punished Assessed by:
Jury
Date Sentence Imposed:
08/06/2018
Date Sentence to Commence:
08/06/2018
Punishment and Place of Confinement:
10 Years Institutional Division, TDCJ
This Sentence Shall run Concurrently.
Sentence of confinement suspended, defendant
placed on community supervision for N/A.
Fine: N/A
Court Cost: As Assessed
Restitution: N/A

App.38a
Time Credited
From: 06/28/2016 to 06/28/2016
From: 07/24/2017 to 11/14/2017
From: 08/02/2018 to 08/06/2018
If Defendant is to serve sentence in county jail
or is given credit toward fine and costs, enter days
credited below.
N/A DAYS

NOTES: N/A

This cause was called for trial in Harris County,
Texas. The State appeared by her District Attorney.
Counsel/Waiver of Counsel
Defendant appeared in person with Counsel.
Punishment Assessed by Jury/Court/No election
Jury. Defendant entered a plea and filed a
written election to have the jury assess
punishment. The jury heard evidence relative
to the question of punishment. The Court
charged the jury and it retired to consider
the question of punishment. After due
deliberation, the jury was brought into Court,
and, in open court, it returned its verdict as
indicated above.
Punishment Options
Confinement in State Jail or Institutional
Division. The Court ORDERS the authorized
agent of the State of Texas or the Sheriff of
this County to take, safely convey, and deliver
Defendant to the Director, Institutional

App.39a
Division, TDCJ. The Court ORDERS Defendant to be confined for the period and in the
manner indicated above. The Court ORDERS
Defendant remanded to the custody of the
Sheriff of this county until the Sheriff can
obey the directions of this sentence. The
Court ORDERS that upon release from
confinement, Defendant proceed immediately
to the Harris County District Clerk’s office.
Once there, the Court ORDERS Defendant
to pay, or make arrangements to pay, any
remaining unpaid fines, court costs, and
restitution as ordered by the Court above.
Execution/Suspension of Sentence
The Court ORDERS Defendant’s sentence
EXECUTED.
-----------------------------------------------------------Furthermore, the following special findings or
orders apply:
DEADLY WEAPON.
THE COURT FINDS DEFENDANT USED OR
EXHIBITED A DEADLY WEAPON , NAMELY , A
FIREARM, DURING THE COMMISSION OF A FELONY
OFFENSE OR DURING IMMEDIATE FLIGHT THEREFROM OR WAS A PARTY TO THE OFFENSE AND
KNEW THAT A DEADLY WEAPON WOULD BE USED
OR

EXHIBITED. TEX. CODE CRIM. PROC. ART. 42A.054;
TEX. PENAL CODE SEC. 1.07(17)(A)(B).

App.40a
Signed and entered on 08/07/2018
/s/ Brad Hart
Presiding Judge
Notice of Appeal Filed: Aug 06, 2018
Clerk: A Sanchez
Case Number: 151408601010
Defendant: Wiltz, Jerry

Right Thumbprint

App.41a
ORDER OF THE COURT OF CRIMINAL APPEALS
OF TEXAS DENYING APPELLANT’S
MOTION FOR REHEARING
(NOVEMBER 25, 2020)
COURT OF CRIMINAL APPEALS OF TEXAS
________________________
JERRY WILTZ
v.
THE STATE OF TEXAS
________________________
Tr. Ct. No. 1514086
PD-0252-20
On this day, the Appellant’s motion for rehearing
has been denied.
JUDGE RICHARDSON AND JUDGE WALKER
WOULD GRANT
/s/ Deana Williamson
Clerk
Alexander Houthuijzen
Attorney-at-Law, PLLC
917 Franklin St Ste 230
Houston, TX 77002-1741
*Delivered via e-mail*

App.42a
14th Court of Appeals Clerk
Christopher A. Prine
301 Fannin, Suite 245
Houston, TX 77002-7006
*Delivered via e-mail*
State Prosecuting Attorney
Stacey Soule
P.O. Box 13046
Austin, TX 78711
*Delivered via e-mail*
District Attorney Harris County
Appellate Section
1201 Franklin St. Ste. 600
Houston, TX 77002-1901
*Delivered via e-mail*

App.43a

CELL PHONE SEARCH WARRANT
(APRIL 9, 2018)
IN THE DISTRICT COURT HARRIS COUNTY,
TEXAS 230TH JUDICIAL DISTRICT
________________________
Nos. 151408601010
Court: 230
________________________
THE STATE OF TEXAS
COUNTY OF HARRIS
To the Sheriff or Any Peace Officer of Harris County
Texas
Greetings:
WHEREAS, Complaint in writing, under oath,
has been made before me by Joe Freeman, a peace
officer employed by Harris County Sheriff’s Office,
and who is currently assigned to the Robbery division/
department, with an address of Harris County Sheriffs
Office, which complaint is attached hereto and
expressly made a part hereof for all purposes and
said complaint having stated facts and information
in my opinion sufficient to establish probable cause
for the issuance of this warrant;
YOU ARE THEREFORE COMMANDED to forthwith search the place therein named, to wit: One (1)
“Alcatel” brand cell phone with Serial Number
B2000013C2Y23RLV tagged in HC16-96075 under
Tag No. 160014885. One (1) “Samsung” brand phone

App.44a
with Serial Number SMS9061 tagged in HC16-96075
under Tag No. 160014885. and One (1) “LG” brand
cell phone with Serial Number 604CYDG011746 tagged
in HC16-96075 under Tag No. 160014885 which is
currently located at 2223 West Loop South, Houston,
Harris County, Texas and is owned by or was found
in the possession of Jerry Wiltz with the authority to
search for and to seize any and all evidence that may be
found therein including, but not limited to: photographs/videos; text or multimedia messages (SMS
and MMS); any call history or call logs; any e-mails,
instant messaging, or other forms of communication
of which said phone is capable; Internet browsing
history; any stored Global Positioning System (GPS)
data; contact information including e-mail addresses,
physical addresses, mailing addresses, and phone
numbers; any voicemail messages contained on said
phone; any recordings contained on said phone; any
social media posts or messaging, and any images
associated thereto, including but not limited to that
on Facebook, Twitter, and Instagram; any documents
and/or evidence showing the identity of ownership
and identity of the users of said described item(s);
computer files or fragments of files; all tracking data
and way points; CD-ROM’s, CD’s, DVD’s, thumb drives,
SD Cards, flash drives or any other equipment attached
or embedded in the above described device that can
be used to store electronic data, metadata, and temporary files.
YOU ARE FURTHER ORDERED to have a
forensic examination conducted of any devices seized
pursuant to this warrant to search for the items previously listed.
HEREIN FAIL NOT and due return make hereof.

App.45a
WITNESS MY SIGNATURE on this the 9th day
of April A.D., 2018 at 11:30 O’clock.
/s/ S. Brown
Magistrate
185th district court
Harris County, Texas

App.46a
AFFIDAVIT OF JOE FREEMAN
THE STATE OF TEXAS
COUNTY OF HARRIS
I, Joe Freeman, a peace officer employed by Harris
County Sheriffs Office, and who is currently assigned
to the Robbery division/department, with an address
of Harris County Sheriffs Office, do solemnly swear
that I have reason to believe and do believe that
within One (1) “Alcatel” brand cell phone with Serial
Number B2000013C2Y23RLV tagged in HC16-96075
under Tag No. 160014885. One (1) “Samsung” brand
phone with Serial Number SKS9061 tagged in HC1696075 under Tag No. 160014885. and One (1) “LG”
brand cell phone with Serial Number 604CYDG011746
tagged in HC16-96075 under Tag No. 160014885 which
is currently located in 2223 West LOOP South.
Houston, Harris County, Texas and is owned by or
was found in the possession of Jerry Wiltz, is evidence including, but not limited to: photographs/videos;
text or multimedia messages (SMS and MMS); any
call history or call logs; any e-mails, instant messaging,
or other forms of communication of which said phone
is capable; Internet browsing history; any stored
Global Positioning System (GPS) data; contact information including e-mail addresses, physical addresses,
mailing addresses, and phone numbers; any voicemail
messages contained on said phone; any recordings
contained on said phone; any social media posts or
messaging, and any images associated thereto, including but not limited to that on Facebook, Twitter, and
Instagram; any documents and/or evidence showing
the identity of ownership and identity of the users of
said described item(s); computer files or fragments of

App.47a
files; all tracking data and way points; CD-ROM’s,
CD’s, DVD’s, thumb drives, SD Cards, flash drives or
any other equipment attached or embedded in the
above described device that can be used to store
electronic data, metadata, and temporary files.
Your Affiant Has Probable Cause for Said Belief
by Reason of the Following Facts:
On June 13, 2016 at approximately 12:50am,
Houston Police Department officers were dispatched
to “Zone D’Erotica” adult store located at 13137
Willow Chase Drive in Houston, Harris County Texas,
in reference to a robbery. Affiant reviewed Houston
Police Department OR#757068-16 learned that George
Granato was the complainant in the aforementioned
case. Complainant Granato advised that while working
at the above location, two suspects (one black male
and one white male) entered the location. Complainant
Granato advised that one of the males was black
and pointed a black gun at the complainant while
demanding money from him. The black suspect
reached under the counter and took the reserve cash
box hidden under the counter, leading the complainant
to believe that the black male suspect must have
worked at the store before. The complainant advised
that the suspects wore bandanas. In addition to the
money, the suspects also took other merchandise
before leaving together in possibly tan suburban.
Shortly after this and on the same previously
mentioned date, Harris County deputies responded to
an Aggravated Robbery call at a different “Zone
D’Erotica” adult store located at 19211 North Freeway,
Spring, Harris County, Texas. Deputies were dispatched at approximately 1:14am, less than 30 minutes
after the call at the 13137 Willow Chase location.

App.48a
While on the scene, Harris County Deputies met
with complainant James Wright who advised that he
was working at the location when two suspects (one
black male and one white male) entered the store.
Complainant Wright advised that the black male
suspect, wearing a black bandanna over his face,
brandished a firearm and demanded the money that
was stored in the register and the backup bank,
leaving complainant Wright to believe that the black
male suspect must have worked at the store before.
The white male was wearing a red bandana and
brandished a black in color handgun with a red slide.
The black male unlocked the door to go behind the
counter, and opened the register as if he had done it
before and took from it approximately $138.00. Shortly
after this and after taking additional store merchandise, Complainant Wright advised that the suspects
then fled from the store in what seemed to be a late
model Gray or Blue Chevy Tahoe or Suburban with
unknown plates.
On Wednesday, January 15, 2016, Deputy Jose
Castellanos of the Harris County Sheriffs Office was
on patrol in the 1300 block of W. FM 1960 Road,
Harris County, Texas when he observed a gray 2007
Chevrolet Tahoe bearing Texas tag BG2Y695 fail to
stop at the designated point when stopping at the red
light, which intersected with Ella Boulevard. Deputy
Castellanos conducted a traffic stop on the vehicle
which then drove into a nearby parking lot. Deputy
Castellanos approached the vehicle and smelled an
odor of marijuana emitting from inside and made
contact with the driver, later identified as defendant
Jerry Wiltz, and noted that he appeared to be nervous.
Deputy Castellanos detained defendant Wiltz. Deputy

App.49a
Castellanos then began to approach the white male
passenger, later identified as defendant Peter VanderVeen. After ordering defendant Vander-Veen to step
out of the vehicle, defendant Vander-Veen opened the
door and fled north through the parking lot. Deputy
Castellanos was eventually able to detain defendant
Vander-Veen and while doing so, recovered a black
KelTec P-11 9mm pistol with a red slide that fell from
defendant Vander-Veen’s waist line.
While Deputy Castellanos was dealing with Defendant Vander-Veen, it was found that defendant Wiltz
had fled the scene. Deputy Castellanos reviewed his
dash cam footage and observed defendant Wiltz fleeing
westbound through the parking lot with the handcuffs
behind his back. Upon the arrival of additional units,
Deputy Castellanos then began to check the Tahoe.
Inside the vehicle, Deputy Castellanos observed
a black Sig Saur P226 9mm pistol within the center
armrest. Deputy Castellanos also observed several
newly packed items through the vehicle, which included
sex toys, “Bongs”, car audio supplies and radio, electronic
cigarettes, back packs, and other miscellaneous items
which appeared to have been stolen. Deputy Castellanos also found two black bandanas and two clear
plastic bags containing a green leafy substance which
Deputy Castellanos knew from his professional experience to be marijuana. Within the vehicle, Deputy
Castellanos also observed several cell phones, including
a cell phone located by the driver seat, where defendant Wiltz had been sitting. Deputy Castellanos began
to check text message that may have had the owners’
name or an address where the owner could be located
and he observed a text having the address of 13137
Willow chase Drive, which was the location of one of

App.50a
the Zone D’Erotica adult stores that had been robbed.
Deputy Castellanos also observed the name “Jerry
Wiltz” in the text message section of the owner’s
message details. In the driver side door panel, Deputy
Castellanos located a check with the name “James
Wright” on it, the same name as the complainant from
the Zone D’Erotica robbery at 19211 North Freeway.
Deputy Castellanos entered the name “Jerry Wiltz”
into the HCSO reporting system at which time a hit
for “Jerry Wiltz”, with a date of birth of 6/2/94 was
found in the system. When checking the driver’s license
information and photo, Deputy was able to positively
identify Jerry Wiltz as the suspect who had escaped
from his scene. Your affiant was briefed on all of the
above on the morning of June 15, 2016 and reviewed
the original report documenting the above, HC1694813.
The items which appeared to have been stolen
were transported to the Cypresswood Station where
they were itemized and documented. The manager of
the Zone D’Erotica adult store was contacted and
was asked to arrive at the Cypresswood Station to
verify items which may have been stolen from the
store. Manager Todd Messsina was able to positively
identify items from the vehicle as belonging to the
Zone D’Erotica located at 13137 Willow Chase Drive.
Manager Todd Messina further identified defendant
Jerry Wiltz as a former employee of Zone D’Erotica.
WHEREFORE, PREMISE CONSIDERED, Affiant
respectfully requests that a warrant issue authorizing
your Affiant and any other peace officer in Harris
County, Texas to search the contents of One (1)
“Alcatel” brand cell phone with Serial Number
B2000013C2Y23RLV tagged in HC16-96075 under

App.51a
Tag No. 160014885. One (1) “Samsung” brand phone
with Serial Number SMS9061 tagged in HC16-96075
under Tag No. 160014885, and One (1) “LG” brand
cell phone with Serial Number 604CYDG011746 tanned
in HC16-96075 under Tag No. 160014885 with the
authority to search for and to seize and to analyze
the property and items set out earlier in this affidavit.
Sworn to and Subscribed before me on this the 9
day of April, A.D., 2018.
/s/ S. Brown
Magistrate
185th district court
Harris County, Texas

App.52a
RETURN AND INVENTORY
THE STATE OF TEXAS
COUNTY OF HARRIS
The undersigned, being a peace officer under the
laws of the State of Texas, certifies that the foregoing
warrant came to hand on the day it was issued
executed on the 10th day of April A.D., 2018, by
making the search directed therein and seizing during
the search the following described property:
Providing DA Investigator D. Brown with a copy
of the signed search warrant for the listed phones in
the possession of the District Attorney’s office.
/s/ Signature not legible
Officer Executing Process

